<html>
<title> - DHS'S SCIENCE AND TECHNOLOGY DIRECTORATE: IS IT STRUCTURED FOR SUCCESS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
 DHS'S SCIENCE AND TECHNOLOGY DIRECTORATE: IS IT STRUCTURED FOR SUCCESS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                  PREPAREDNESS, SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2006

                               __________

                           Serial No. 109-98

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-567                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Ginny Brown-Waite, Florida           Islands
Peter T. King, New York (Ex          Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave G. Reichert, a Representative in Congress For 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science and Technology.................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  For the State of New Jersey....................................     3
The Honorable Bob Etheridge, a Representative in Congress For the 
  State of North Carolina........................................    14
The Honorable Stevan Pearce, a Representative in Congress For the 
  State of New Mexico............................................    17
The Honorable Charlie Dent, a Representative in Congress For the 
  State of Pennsylvania..........................................    18
The Honorable Nita M. Lowey, a Representative in Congress For the 
  State of New York..............................................    26

                                Witness

The Honorable Jay Cohen, Under Secretary for Science and 
  Technology, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6


                     DHS'S SCIENCE AND TECHNOLOGY 
              DIRECTORATE: IS IT STRUCTURED FOR SUCCESS--

                              ----------                              


                      Thursday, September 7, 2006

                          House of Representatives,
                    Committee on Homeland Security,
       Subcommittee on Emergency Preparedness, Science and 
                                                Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
Room 334, Cannon House Office Building, Hon. Dave Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, Pearce, Dent, Pascrell, 
Lowey, and Etheridge.
    Mr. Reichert. [Presiding.] Good morning. The Committee on 
Homeland Security's Subcommittee for Emergency Preparedness, 
Science and Technology will come to order.
    The subcommittee will hear testimony today on proposals to 
restructure the Department of Homeland Security's research and 
development arm, the Directorate of Science and Technology.
    Before we begin, let me first welcome our distinguished 
witness, Rear Admiral Jay Cohen--thank you, sir, for being 
here; congratulations--Department of Homeland Security's new 
undersecretary for science and technology.
    On behalf of the committee and my colleagues, we would all 
like to welcome you today for your first appearance before 
Congress since your confirmation by the Senate on August 3rd, I 
believe.
    Undersecretary Cohen, I know I speak for many and we thank 
you for coming out of retirement to join the Department of 
Homeland Security. You have served our nation with distinction 
for 35 years in the United States Navy and bring to the Science 
and Technology Directorate an extensive depth of leadership, 
experience and proven technology credentials.
    There is no doubt the directorate is fortunate to have such 
an accomplished, capable leader. And we sincerely hope that you 
will be successful at the Department of Homeland Security, as 
you were in your successful career, five-year tour of duty as 
chief of naval research.
    When most people think about homeland security, they think 
of police officers, they think of firefighters and emergency 
medical technicians, not usually academics, scientists or 
engineers. They think of police stations and firehouses and 
ports and border crossings, not usually laboratories, think 
tanks, universities and technology companies.
    They think of the courageous public servants who put their 
safety at risk to protect our lives and our property, not the 
technology that enables them to do their job most effectively 
and efficiently.
    That is precisely while the hearing this morning will focus 
on the effectiveness and the structure of the Department of 
Homeland Security Directorate of Science and Technology, the 
department's research, development, testing and evaluation arm.
    Until Congress and the administration established the 
Directorate of Science and Technology in the Homeland Security 
Act of 2002, there had never been a dedicated research, 
development, testing and evaluation system for first 
responders.
    Unlike most of the department's other components, the 
directorate is not a legacy agency. Its establishment in March 
of 2003, therefore, was a watershed event for our nation. Yet 
given the relative newness of S&T Directorate, it has not 
surprisingly encountered more than its usual growing pains.
    Indeed, during the past 3 years, Congress has grown 
increasingly frustrated with the directorate's performance. The 
litany of complaints is long, and I will just list a few of the 
criticisms that have been leveled. And I am sure they are not 
going to be new for Mr. Cohen.
    So, number one is the lack of transparency in strategic 
planning; number two, providing inadequate detail in its budget 
justifications; third, systematic deficiencies in its financial 
and accounting controls; and four, poor response to the needs 
for its customers and end users; and lastly, failing to more 
rapidly develop and adopt currently existing technologies for 
homeland security purposes.
    As a result of these and other problems, real or perceived, 
many in Congress and elsewhere have lost confidence in the 
ability of the Science and Technology Directorate to fulfill 
its statutory responsibilities.
    This hearing comes at a pivotal time in the Science and 
Technology Directorate's brief three-year history.
    Mr. Undersecretary, with your recent confirmation, you are 
now in the hot seat. Today, my colleagues and I would like to 
learn how precisely you plan to fix some of the problems that 
we have mentioned and inspire confidence in the ability of the 
directorate to develop and disseminate technologies that will 
help our nation's first responders prevent, prepare for, 
respond to and recover from acts of terrorism, natural 
disasters and other emergencies.
    Mr. Undersecretary, during your nomination hearing before 
the Senate Committee on Commerce, Science and Transportation, 
you stated that, ``In the war on terrorism technology can mean 
the difference between life and death, victory or defeat.''
    As a former first responder, I couldn't agree with you 
more. Technology is a critical force multiplier. And speaking 
from experience, it can be the difference between life and 
death for cops, firefighters, emergency medical technicians and 
many, many others in our community.
    So as we close in on the fifth anniversary of the attacks 
of September 11, 2001, we are eager to hear your plans for 
ensuring that our nation continues to maintain its scientific 
and technological advantage over some very determined 
adversaries.
    This is far from the first hearing that the subcommittee 
will hold on science and technology issues, and it certainly 
won't be the last. So with that in mind, I look forward to your 
testimony and to working with you in the future to make the 
directorate as effective as possible.
    The chair recognizes the ranking member, Mr. Pascrell, for 
his statement.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I want to thank my good friend and colleague, Chairman 
Reichert, for agreeing to hold this important hearing.
    And I want to welcome Rear Admiral and Undersecretary 
Cohen, and thank you for your service to your country. I think 
I speak for all of us when I say that we look forward to 
working with you in a robust manner. This is a very robust 
subcommittee.
    We understand how critical your work is, and we know that 
improving the Science and Technology Directorate at the 
department is a matter of profound and urgent necessity.
    As you are no doubt aware, Mr. Secretary, this hearing 
comes at a time of great dissatisfaction from many of the 
members on both sides of the aisle, across the House and the 
Senate, who have grown increasingly frustrated with the 
directorate in recent months. We all sense a feeling of 
urgency. I am being charitable, to sum up all of the things 
that we have gone into.
    The Washington Post noted just recently that the S&T 
Directorate is ``hobbled by poor leadership, weak financial 
management and inadequate technology.''
    That article noted that the S&T had struggled with 
turnover. We have had that problem in many, Mr. Chairman, many 
of the departments within Homeland Security--reorganizations, 
beyond how much we can count even, and raids on its budget 
since it was established in 2003.
    The Senate Appropriations Committee recently expressed its 
extreme disappointment with the manner in which S&T is being 
managed within the Department of Homeland Security. You are 
taking on an alligator here.
    Despite the efforts of the acting head of S&T, this 
component is a rudderless ship without a clear way to get back 
on course. That came out of the Senate Appropriations 
Committee.
    So many of us, also, are disturbed by the lack of 
transparent strategic planning, inadequate details in the 
budget justification, and deficiencies in the financial and 
accounting controls.
    And then there is the organization of the directorate 
itself. Several months ago, senior directors of the S&T 
Directorate briefed committee staff on a reorganization of the 
directorate. At the time, those officials told the staff that a 
reorganization of the directorate had already begun and that 
the current structure no longer bears any resemblance to the 
official department organizational chart.
    In recent weeks we have heard that the particular 
reorganization has fallen out of favor. So here we go again--if 
that is true.
    In a briefing to committee staff, Undersecretary Cohen 
announced his intent--you announced your intent to set aside 
the old reorganization plan and proceed with your own, as I 
understand the meeting went.
    All of these reorganizations beg the question: What does 
the Science and Technology Directorate look like today-- What 
vision will be implemented-- How long will it take for these 
changes to become effective-- How effective can the department 
be with all of this shuffling-- These are the questions that we 
would like to hear answers to today.
    But fixing the problems of the S&T Directorate go beyond 
short-term operational fixes. A variety of advisory councils 
and GAO reports have noted significant problems within the 
directorate.
    For example, the directorate needs to develop a broad 
strategic plan. GAO is right on target, as they usually are.
    The directorate must better redefine or define its 
relationships with national labs and executive agencies to 
avoid duplication of efforts.
    The directorate must develop a robust procurement system 
that can readily provide information about the obligations and 
the unexpended obligations associated with each contract.
    And the directorate must improve its efforts in developing 
a prudent business model. They must provide breakdowns and 
justifications of funds--to private-and public-sector 
facilities.
    It is ironic, you know, 3 years later, we are still talking 
about pretty basic stuff here.
    The directorate must also improve its personnel system, 
strengthening the workforce recruitment and retention program, 
create a culture of responsibility with its managers.
    The undersecretary doesn't have an easy job; I don't think 
you do. This committee has spent some time, also, on discussing 
our relations with our allies in developing science and 
research and research and development. I think that is 
critical. I think it is important.
    There isn't a part of Homeland Security, from intel down to 
our good friends at TSA, there isn't one aspect of this that 
isn't affected by what we are going to be doing here, what you 
are going to lead us to do.
    So I welcome you. I look forward to hearing your proposals, 
and I want to certainly commit ourselves to working with you.
    And, Mr. Chairman, before I yield back, I know this issue 
is extremely important to Congresswoman Loretta Sanchez. 
Unfortunately, due to a prior commitment, as we all have, she 
can't be here today. I ask unanimous consent to submit her 
written statement.
    Mr. Reichert. Without objection.
    [The statement of Ms. Sanchez follows:]

                       NOT RECEIVED BY COMMITTEE

    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    Others members on the committee are reminded that opening 
statements may be submitted for the record.
    The chair now calls our panel, its sole witness, the 
Honorable Jay Cohen, undersecretary for science and technology, 
U.S. Department of Homeland Security. The chair recognizes the 
undersecretary for his testimony.

  STATEMENT OF HON. JAY COHEN, UNDERSECRETARY FOR SCIENCE AND 
        TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Thank you, Chairman Reichert and Ranking Member 
Pascrell and the distinguished members of the committee. I will 
tell you that it is an honor to be here today and to discuss 
the Department of Homeland Security Science and Technology 
Directorate.
    I appreciate very much your invitation to discuss my vision 
for and the realignment of the directorate to better meet the 
mission needs of our customers, that being the DHS components, 
and, as Jack Walsh would say, the customers of our customers, 
most important, the first responders and men and women that S&T 
enables to make the homeland safer.
    I am honored and privileged to serve with the dedicated men 
and women, scientists and engineers and professionals who are 
working to secure our homeland and defend our freedoms. Science 
and technology is a critically important enabler, and I am 
honored that so many of them would join me at this hearing 
today, and they sit behind me.
    The S&T Directorate has a significant role in bringing to 
bear solutions to the department's homeland security 
challenges. During my tenure at the Office of Naval Research, 
especially after the tragic events of 9/11, I learned first-
hand the incredible value that a sustained, customer-focused, 
balanced, basic and applied research program adds to America's 
ability to bring advanced technology to our and our allies' 
asymmetric advantage against the enemies of freedom.
    It can mean the difference between life and death, victory 
and defeat, as the chairman has already noted from my 
confirmation hearing. Ladies and gentlemen, we are at war 
today, and there is no time to waste.
    President Bush noted the importance of science and 
technology in July of 2002 when he discussed the creation of 
the Department of Homeland Security: ``We will harness our 
science and our technology in a way to protect the American 
people. We will consolidate most federally funded homeland 
security research and development to avoid duplication and to 
make sure all the efforts are focused.''
    The S&T Directorate's enabling legislation--and I salute 
the Congress for that visionary legislation; it took enormous 
courage--the Homeland Security Act of 2002, by creating the S&T 
Directorate and defining the mission, recognizes the importance 
of robust science and technology.
    I intend to move the organization forward by streamlining 
processes, improving accountability and empowering people to 
conduct the important work of the directorate.
    I might add that you have heard those kinds of words many 
times before. I would just ask that you judge me on my actions, 
not on my words. I will be available to you and expect to be 
held accountable, as I have been accountable throughout my life 
and my career.
    I was sworn in on the 10th of August by Secretary Chertoff. 
That was the day that the British Airways plot broke, and it 
has been quite a ride ever since. And I my sense is that it 
won't let up in the time that I am on board.
    In the short time that I have been on board during the 
August recess, I have had the privilege to work, Chairman 
Reichert, with your staff and also, Congressman Pascrell, with 
your staff in a bipartisan, nonpartisan way. In fact, I have 
had a chance to sit down at length with the committee staff of 
six of the seven committees that I deal with in both houses, 
and authorizers and appropriators, and have received good 
advice and consult from them. And we are very well-served by 
their service.
    I would ask that the rest of my remarks be made part of the 
record, because your time is most valuable, and I would like to 
use this precious time to share with you my plans for the 
realignment of the directorate, so that we can be effective and 
address all of the issues that have been raised.
    [The statement of Mr. Cohen follows:]

                    Prepared Statement of Jay Cohen

    Good Morning Chairman Reichert, Ranking Member Pascrell, and 
distinguished Members of the Committee, it is an honor to be with you 
today to discuss the Department of Homeland Security (DHS) Science and 
Technology Directorate (S&T Directorate). I appreciate your invitation 
to discuss my vision for and realignment of the Directorate to better 
meet the mission needs of our customers - the DHS Components; and the 
customers of our customers - the first responders and men and women 
that S&T enables to make the Nation safer.
    I am honored and privileged to serve with the dedicated men and 
women, scientists, engineers and professionals who are working to 
secure our homeland and defend our freedoms.
    The S&T Directorate has a significant role in bringing to bear 
solutions to the Department's homeland security challenges. During my 
tenure at the Office of Naval Research (ONR), especially after 9-11, I 
learned first hand the incredible value that a sustained, customer 
focused balanced basic and applied research program adds to America's 
ability to bring advanced technology to our (and our allies) asymmetric 
advantage against the enemies of freedom. It can mean the difference 
between life and death, victory and defeat.
    President Bush noted the importance of science and technology in 
July of 2002 when he discussed the creation of the Department of 
Homeland Security "We will harness our science and our technology in a 
way to protect the American people. We will consolidate most federally 
funded homeland security research and development, to avoid 
duplication, and to make sure all the efforts are focused."
    The S&T Directorate's enabling legislation, the Homeland Security 
Act of 2002, by creating the S&T Directorate and defining the mission, 
recognizes the importance of robust science and technology. I intend to 
move the organization forward by streamlining processes, improving 
accountability and empowering people to conduct the important work of 
the Directorate.
    The S&T Directorate's mission is to protect the homeland by 
providing Federal, State, local, and Tribal officials with state-of-
the-art technology and resources. There are strategic objectives to 
fulfill the Directorate's mission:

         Develop and deploy state-of-the-art, high performance, 
        affordable systems to prevent, detect and mitigate the 
        consequences of chemical, biological, radiological, nuclear and 
        explosive (CBRNE) attacks
         Develop equipment, protocols, and training procedures for 
        response to and recovery from CBRNE attacks
         Enhance the technical capabilities of the Department's 
        operational elements and other Federal, State, local and tribal 
        agencies to fulfill their homeland security related missions
         Develop methods and capabilities to test and assess threats 
        and vulnerabilities, and prevent technology surprise and 
        anticipate emerging threats
         Develop technical standards and establish certified 
        laboratories to evaluate homeland security and emergency 
        responder technologies, and evaluate technologies for SAFETY 
        Act protections
         Support U.S. leadership in science and technology
    To accomplish this mission and be successful we need to make 
changes to mature the organization, as pointed out in the language in 
both the Senate and House 2007 appropriations committee reports. I 
intend for the Directorate to become an organization that is a customer 
focused, output oriented, a full service organization as envisioned in 
the enabling legislation that must be cost efficient, effective, 
responsive, agile, and flexible. To advance the organization I intend 
to make the following adjustments which I call "The 4 Gets".

Get the Organization Right
    The House Appropriations Committee Report calls for S&T to develop 
and implement a new business model to fix the Directorate's challenge 
to "adequately convey its role or how it supports the mission of DHS 
component agencies". To put it simply, S&T needs to be relevant. The 
best minds in public sector, private sector and academia have been 
working diligently to bring solutions to many of the challenges facing 
DHS. However; under the previous construct the organization was aligned 
by executing entity , who was doing the work. Our DHS Customers need an 
organization that is easier to access in order to utilize technologies 
and solutions that will make their jobs better, more efficient, more 
cost effective, and safer. The S&T Directorate needs to be more 
accessible in order for the DHS Components to leverage the value added 
of the good work the men and women of S&T are bringing to the fight.
    However, I don't believe rearranging boxes, in-and-of-itself, will 
make an organization relevant. For that to happen there needs to be a 
change in organizational culture. The Directorate must become a model 
service organization focused on its customers. It cannot be isolated 
and removed from them. DHS S&T must engage its customers in setting 
priorities, defining requirements, determining capabilities needed and 
evaluating performance. In other words, defining what we will do for 
our customers, how we will do it, and how we will measure success.
    My goals of the realignment are:

         Accelerate the delivery of enhanced technological 
        capabilities to meet the requirements and fill the gaps of DHS 
        agencies to ensure the successful accomplishment of their 
        missions
         Establish a lean and agile, federally staffed, world class, 
        S&T management team, consistent with DHS enabling legislation/
        law, and proven, successful research organizations, to develop 
        and deliver the technological advantage necessary to ensure DHS 
        Agency mission success, and prevent technological surprise.
         This organization must be able to span basic research thru 
        advanced technology/prototypical demonstration to satisfy 
        government leadership direction, customer agency requirements 
        and emergent real world developments.
         The resulting accountable organization will be able to 
        effectively, efficiently and objectively develop, execute and 
        justify budgets and programs which achieve the desired mission 
        goals
         In conjunction with other public and private institutions, 
        proactively provide leadership, opportunities and resources to 
        maintain and develop the necessary intellectual basis for a 
        national S&T workforce and focused research disciplines that 
        will ensure the safety of our homeland
    The S&T Directorate will be aligned in six Divisions along enduring 
disciplines that will enable the Directorate to have sustained and 
meaningful impact for our Customers. The divisions and disciplines and 
examples of portfolios/programs within them are:

         Energetics - i.e., Aviation Security; Mass Transit Security; 
        Counter MANPADS
         Chem/Bio - i.e., Chem/Bio Countermeasure R&D; Threat 
        Characterization; Ops; and Agro-Defense; Bio-surveillance , 
        Response & Recovery
         C4ISR- i.e.,(Information management, information sharing, 
        situational awareness) - i.e., Interoperability and 
        Compatibility; Intel/ Info sharing, Screening, Cyber Security 
        R&D
         Borders/Maritime - i.e., Land Borders, Maritime/USCG, Cargo
         Human Factors - i.e., Social-behavioral- Terrorist Intent, 
        Human response to Incidents, Biometrics
         Infrastructure/Geophysical Science - i.e., Critical 
        Infrastructure Protection, Regional State and Local 
        Preparedness and Response, GeophysicsEach Division would have 
        at least one Section Director of Research and a Section 
        Director of Transition who would work with the Directorate's 
        Director of Research - (focused on Research which will also 
        house the University Programs including Centers of Excellence) 
        -- and Director of Transition (focused on Applications) 
        respectively. The Director of Transition will coordinate within 
        the Department to best expedite technology transition.The 
        Director of Innovation (HSARPA), as specified in the law will 
        "Support basic and applied homeland Security research to 
        promote revolutionary changes in technologies; advance the 
        development, testing and evaluation, and deployment of critical 
        homeland security technologies; and accelerate the prototyping 
        and deployment of technologies that would address homeland 
        security vulnerabilities" and will work with each of the 
        Division heads in doing so. HSARPA will also work with each of 
        the Division heads to accelerate technology transition.This 
        structure will allow a healthy balance between research and 
        applications, risk and time to delivery. Investments will span 
        across Transition Readiness Levels (TRL), including short - 
        term (under 3 years); mid- term (3-8 years); and long term 
        (over 8 years). This push and pull between research and 
        application as well as tension over applied research resources 
        will allow for a balanced portfolio of investment.In addition 
        to the Divisions the organization will have additional 
        components:
         Reporting to the Director of Research, the Office of National 
        Laboratories would be responsible for the coordination and 
        utilization of the Department of Energy national laboratories, 
        Plum Island Animal Disease Center and National Bio-defense 
        Analysis and Countermeasures Center.
         Reporting to the S&T Chief of Staff, the Business Operations 
        and Services Directorate would serve as a centralized service 
        organization and house Human Capital, Security, Acquisition, 
        CIO and Facilities and Logistics.
         There would be a Director of Test and Evaluation and 
        Standards.
         The Director of S&T Special programs would oversee the S&T 
        Directorate's highly classified projects.
         A Director of Government Agency and International Liaison 
        would help facilitate government-wide S&T coordination and 
        provide outreach to our allies.
         Reporting directly to me would be Homeland Security Institute 
        as well as CFO, Counsel and Corporate Communications.
    A new organization is only as good as the people you have working 
in it which brings me to the next "Get".

Get the People Right
    The S&T Directorate has resources across public sector, private 
sector and academia; I refer to this as the Homeland Security Research 
Enterprise. Thanks to the enabling legislation, we have the ability to 
leverage DHS labs, DOE's National Labs, Homeland Security Institute and 
the DHS Centers of Excellence. Additionally we utilize other agencies' 
resources including DoD, NIST, HHS, USDA, EPA, NSF, DoD FFRDCs, 
industry, international partners and stakeholder associations.
    I will enable the best and brightest - scientists, engineers and 
professionals (associates) - to meet the mission and take a holistic 
approach to fill technology capability gaps of the Department.
    Because the S&T Directorate will be output driven we will have a 
healthy balance between research and applications. This diversity will 
be mirrored in the skills and expertise of our people. We will have 
matrixed staff across the Divisions that will focus on research and on 
transition.
    Once we have the organization structure and the people in place, we 
need the tools and processes to ensure accountability.

Get the Books Right
    The S&T Directorate will execute appropriations as intended by 
Congress. We will also be fiscally accountable to our DHS Customers, 
the Congress and the American people.
    The S&T Directorate CFO, Richard Williams reported onboard with me. 
He comes out of the DHS Program Analysis and Evaluation Office to help 
put in place the systems and protocols to enable S&T Directorate to be 
fully responsive and transparent in the development, presentation and 
execution of the budget.
    The next step is to get the focus of the work aligned to better 
enable the customer.

Get the Content Right
    My years at ONR have taught me that an R&D organization must take 
to heart customers' insights, priorities, and goals. Too often those in 
science and technology fields say "we know what you need". They do 
research because it is interesting and holds potential for future 
capabilities not because it meets a specific goal or objective. While 
this type of unfettered scientific research is important the S&T 
Directorate must also focus and prioritize resources to be output 
oriented and customer driven. We must set our priorities to align with 
National and Department of Homeland Security priorities. S&T's work 
will be targeted at enhancing capabilities and customers needs.
    Last year, as Secretary Chertoff was rolling out his second stage 
review, he emphasized the need of the Department to focus on risk. "We 
cannot protect every single person against every single threat at every 
moment and in every place. We have to, with our finite resources and 
our finite employees; be able to focus ourselves on those priorities 
which most demand our attention. And that means we have to focus on 
risk. And what does that mean-- It means we look at threat, we look at 
vulnerability, and we look at consequence." The S&T Directorate will 
endeavor to fulfill risk based needs of our customers. This will be 
accomplished by enhancing the Customer's operational capabilities.

The Four "B's"
    To quickly capture and articulate broad risk based priorities, I 
internally refer to them as the "4 B's":
         Bombs,
         Borders,
         Bugs (Biological) and
         Business - (protecting the processes that make our economy 
        function).
    To meet these priorities, the S&T Directorate will work with our 
customers to better focus our research and enable our customers in 
order to better secure our nation in those core areas.
    To ensure customer product alignment, the S&T Directorate will 
utilize Integrated Products Team (IPT). These IPTs will be customer 
led. DHS Management will be included for Acquisition expertise/ 
involvement. An S&T Division Head will be a team member, as will, when 
appropriate, the end-user. Test and Evaluation will be an important 
part of the IPT process to ensure that products and capabilities we 
deliver will meet the customers' and first responders' needs.
    The S&T Directorate will restructure its investment portfolio to 
create a balance of potential project success , cost, impact and the 
time it takes to deliver. To achieve that balance there needs to be a 
healthy tension between Research and Applications. We will work 
projects that are across the spectrum of Transition Readiness Levels 
(TRL). Our investment portfolio also has to be prioritized across long-
term research, mandated spending, product applications and leap ahead 
"game-changing" capabilities. I look forward to working with you and 
your staff to get the right mix for the S&T Directorate investment 
portfolio.
    My goal is that, as a result of this S&T Directorate realignment, 
when the President's fiscal year 2008 budget is sent forward to 
Congress, this Committee, and the Appropriators, will see that DHS S&T 
is a more responsive, agile, customer-focused organization, one that 
better enables our nation to prevent, protect, respond, and recover 
from acts of terrorism, natural disasters or other emergencies.
    Thank you for the opportunity to discuss the realignment. I would 
be pleased to address any questions you may have.

    Mr. Reichert. Well, thank you, Undersecretary.
    I will start just by asking, first of all, have you 
received approval for your organizational proposal from 
Secretary Chertoff--
    Mr. Cohen. Yes, sir, I am pleased to share with you, 
because of the efforts, as I said, of working with the 
congressional staff, working with my leadership team in the S&T 
directorate, working with Deputy Secretary Michael Jackson and 
Secretary of Homeland Security Chertoff and others, that 
yesterday at noon, high noon, Secretary Chertoff approved the 
realignment that you will see presented here.
    Nothing is perfect. It is not about moving the boxes 
around, and I address that in my statement. It is about the 
people. We are going to talk about what makes this work. But 
this is a proven model.
    Ladies and gentlemen, I am not a scientist, and I am a 
shade tree engineer, I am a New Yorker, so I am tough. I can 
take the criticism and thrive on the challenge.
    But this will be a work in progress, as long as we have the 
agile, devious, heinous enemies that we face in this war on 
terror.
    And so, the short answer, Mr. Chairman, is it has been 
approved. I will put that in an organizational manual so there 
will be no question within my directorate of what the roles and 
the responsibilities are. But that will follow the product line 
that we hope to kick-start by this realignment.
    Mr. Reichert. Could you touch on just some of the 
highlights of your proposal--
    Mr. Cohen. Yes, sir.
    First of all, if I may, Bob Hooks, who is my acting chief 
of staff and was involved, has been at the directorate for some 
time, was involved, Congressman Pascrell, with the 
reorganizational attempts of the last many months and has been 
intimately involved with this, and he will help me with the 
posters.
    I just wanted to make sure everyone was reminded--and I 
know I don't have to remind this committee, but it is terribly 
important, I think, to understand why we are here, why we have 
the Department of Homeland Security--the heinous events of 9/11 
and the attacks that have followed.
    At the end of the day, why are we here and who do we 
enable-- It is the customer of the customer. It is the first 
responders; it is the state; it is the local; it is the tribal; 
it is the people at the pointy end of the spear.
    I believe when we are successful--and ladies and gentlemen, 
we will be successful in S&T; we don't have any other choice. 
Six years ago when I was asked to be the chief of naval 
research in the Office of Naval Research, a very mature S&T 
management organization--and that is what my directorate is in 
Homeland Security.
    We do not do S&T. We manage S&T, and we do that from basic 
research to applied research and advanced technology. But we 
are not a laboratory. We enable the scientists and the 
engineers to do what they do and then bring it to the customer.
    But I was asked to take the Office of Naval Research and 
make it more relevant for our customers in the Navy--those are 
the systems commands who buy and deliver the ships, the 
airplanes, the tanks for our Marines, et cetera--and to focus 
on the customer of our customers; their being the sailors and 
the Marines in harm's way.
    You can see the parallel with Homeland Security where my 
customers are the agencies and the activities within Homeland 
Security--and we will talk about those in a minute--but then 
the customer's customers being the first responders.
    So I believe from science and technology will flow security 
and trust for our nation.
    Now, what guides me-- Well, I have encapsulated it into 
what I call the ``four gets'' and the ``four B's.''
    If we are going to be successful I must get the people 
right. And, ladies and gentlemen, we have world-class people. 
There has been turnover in the directorate. There has been 
turnover in the department. But I can tell you I am joined by 
many people here today who are leaving high-paying civilian 
jobs, coming from other government jobs, because they want to 
serve. They believe the threat is real, and as they have told 
me this is about their children, their grandchildren and their 
neighbors.
    I had one individual who previously served with me, no 
longer in government service, who told me he was turning down a 
$500,000-a-year job to come on board in Homeland Security--we 
will talk about his role in testing, evaluation and standards 
as we go through this--because when his neighbors in southern 
Maryland heard that he would have the opportunity to serve in 
Homeland Security and make their neighborhood and our country 
safer, how could he turn that down--
    Now, I will tell you most of my neighbors have asked for 
handwritten notes so they don't have to take their shoes off as 
they go through the screening. And I can give them those notes, 
but regrettably, it serves no purpose. I have to take my shoes 
off also.
    So the people are critically important. We must get the 
books right.
    I am joined today my Dick Williams, who is sitting behind 
me. He came on board the 10th of August at the direction of 
Secretary Chertoff. He comes from a background at naval 
reactors. All of you know the nearly 60-year history of naval 
nuclear reactors and its demands for accuracy, precision and 
accountability. And he comes by way of 3 years at the 
leadership position in Homeland Security of the plans and 
requirements branch.
    He has already engaged with me in our staff briefings of 
all the committees, and we have made our books transparent. We 
have taken deep dives down to the lowest levels. A lot of the 
information was there. Why it wasn't presented previously or 
presented in a manner that was accountable remains to be seen.
    But we have already set a very high standard, and I think 
the feedback from your staff should substantiate that. But we 
will continue that. And we will have one set of books. And you 
will see how the organizational construct takes us there.
    We have to get the organization right. Ladies and 
gentlemen, I can get product out of any organization, no matter 
how dysfunctional. But it is enormously beneficial if the 
organization is aligned to the customer and the provider. When 
you go to the yellow pages of S&T Directorate and you have a 
need, you know where to go, and we make it one-stop shopping.
    So all of these are additive. And finally I have got to get 
the content right. The research that we are doing has to be 
applicable to the threats that we are facing. And we will talk 
more about risk, tolerance and timelines that determine what 
that content is. And, Congressman Pascrell, that goes to the 
strategic plan concept.
    And so, as I was getting ready for my confirmation, I 
looked at the challenges that I might have, and I just made 
those the ``four B's''--I like people to be able to grasp what 
we are trying to achieve--and those are bombs, borders, bugs 
and business.
    Now, I would have liked to put ``containers'' in there, but 
it didn't start with a ``B.'' But I have got really smart 
people, and even the staff said, ``Well, what about boxes--' '' 
It was a little bit too plebian. And, oh, by the way, 
``containers'' fit in many of these areas.
    Now, as you look at this, you are probably saying to 
yourself, ``What is this business thing-- I understand bombs. I 
understand borders. I understand bugs.'' Well, ladies and 
gentlemen, we live in a high-tech society, and I was reading in 
USA Today the other week that we have a negative savings rate 
in this country. If the bad guys go after our ability to use 
our ATM, if they go after our ability to transfer funds, to 
make stock trades, those are the sinews of business in our 
country today. They are critically important.
    And so it is not just about the visible challenges we have; 
it is the cyber and the process challenges that we have. And 
that is what I have tried to capture with business.
    So what are the overarching goals of the realignment-- I 
have put them in my opening statement. I think they are more 
eloquent in there, but I will try and capture them as best as I 
can.
    Number one is to create a customer-focused, output-
oriented, full-service S&T organization.
    Number two, because I am a political appointee, I come and 
go as administrations change. That is our system. We must 
establish, learning from the experience over the last 3 years, 
a government service manned organization that can create, 
execute and justify the budget. Because that is what you do in 
Washington. You are doing those three things simultaneously.
    And it must be on mission-oriented programs, so that when I 
move on, we don't have these enormous swings. This is about the 
defense of our homeland. It is far too important to let things 
swing more than they have to with the normal turnover of 
people.
    And finally--and I salute you so much--one of my guidelines 
and the principal guideline in this organizational construct 
was the 19 pages of the enabling legislation, out of 187 pages, 
for the S&T Directorate in the Department of Homeland Security.
    And I have read this and reread this, and I think you will 
find--and I have discussed it with your staff--that we have 
accounted for and included all of the very important and 
serious responsibilities that you have tasked my directorate 
with.
    But one area--and you had great vision here. And this is 
one of the strengths of America--we are optimistic. We believe 
in the future, and we understand the value of sustained 
investment in basic research. You don't know what you don't 
know, and you have got to go up a lot of alleys to figure out 
which ones are blind. Einstein said, ``If we knew the answer, 
it wouldn't be research.''
    I believe from my service in the Office of Naval Research 
that the Congress passing the Bayh-Dole Act nearly a quarter of 
a century ago is in large measure responsibility for unleashing 
the invasion and the intellectual prowess of our universities, 
our students and our researchers, and in large measure we owe 
our economic viability to that. And that is critically 
important to us in the future.
    It is no surprise to you that we are in crisis in many of 
our schools. In the middle schools, children, boys and girls, 
are turning away from math and science. We must turn that 
around. Bill Gates has addressed that. The Congress has 
addressed that. We have caucuses on that. The administration 
has addressed that. This is critically important to our 
economic welfare.
    And so the synergy is in your tasking to me to be a leader 
in basic research and invest properly and wisely with a focus 
on Homeland Security mission areas. It is extremely important. 
And even though I am just an old naval officer and not a 
scientist, I believe strongly in this because it is about our 
future, and I am absolutely committed to that.
    So, let's get into the organization. I believe it is all 
about the mission and the budget. And if I follow the budget, 
everything else flows from that.
    If I only had one slide, one poster, to use to describe my 
philosophy and where we are going, it would be this one. I must 
in my duties balance risk, from low risk to high risk; that 
means risk of success; cost, low to high; the impact that it 
will have; and finally, the time of delivery. These are the 
variables that I deal with.
    And the Congress has been very kind to S&T across the 
government and understands that S&T is the only place where we 
are not only authorized but encouraged to take risks. Small 
investments in the precise measurement of time--in 1975, 
$75,000 gave us global positioning. In 1990, a game changer, a 
transistor to the wireless world we live in today. Einstein's 
E=mc2 and nuclear power--ideas matter; research matters.
    We must be customer-focused. We must be output-oriented. 
You will continue to hear those from me. Now, there are people 
who think that customer-focused and output-oriented is mutually 
exclusive with a robust investment in basic research. They are 
not. They are complementary. And I think you will see how they 
flow one into the other.
    But because you allow me to take risk in S&T--and with risk 
comes the chance of failure, but also comes the opportunity for 
great success--I believe that by putting millions at risk, I am 
saving billions in acquisition from being put at risk. And that 
is the model that I have used.
    So if we can go through this chart, I think you will see 
how everything else flows organizationally.
    In the upper left-hand corner, this is the output function. 
This is product transition. This is the here and now. This is 
focused on delivering to the acquisition community and my 
customers, the directorates and agencies within Homeland 
Security, the product enhancements they need for the hundreds 
of millions, nay, billions that they will be spending.
    This is customer-controlled. I use an integrated process 
team. This is not sporadic. This is a continuous process that 
has oversight.
    And, ladies and gentlemen, on the output function of 
science and technology, we have metrics. I say again, we have 
metrics. And the metrics are the costs, the schedule and the 
capability or technology readiness level to answer the needs of 
the customers. This is the majority of what I do.
    If you then go to the right, the first block is medium to 
low risk. This is when you go to Best Buy and you had a three-
megapixel camera and now, for less money, a five-megapixel 
camera is available. That is what we are talking about in a 
spiral-development, acquisition-focused enhancement.
    Next, you go to innovative capabilities. I view this in the 
time frame of 2 to 5 years. This is high-risk; this is high-
payoff. This is where the Congress had the wisdom to 
incorporate in my directorate the HSARPA organization. This is 
innovation. If we get this right, these are game changers. This 
makes acquisition uncomfortable because it challenges their 
assumptions. It is the better way of doing business.
    And, ladies and gentlemen, our successful large and small 
businesses in this country that give us the iPod and give us so 
many other things--create jobs, create wealth--they get this. 
And we have to be able to do this in government.
    And you have provided in legislation for prototyping, 
testing and development. That has a high probability of 
success, but failure can occur. But we learn from that failure.
    In the lower left-hand block is basic research. This is an 
area where we are planting 1,000 flowers. From those 1,000 
flowers, we harvest 100 projects. From the 100 projects, we 
then go into two or three prototypes. And from those two to 
three prototypes, we get the George Foreman grill. We get the 
profit-maker.
    Now, that makes a lot of managers really uncomfortable, 
because 1,000 flowers is basic research, unfettered. You may 
not see the results for 8 or 10 years or ever. The 100 projects 
is in this time frame, and the prototypes transition there to 
give you the profit-maker.
    Now, every boss I have worked for and every industry I have 
talked with has made it clear. They want one flower to result 
in one project to give you one prototype to give you one 
profit-maker. Oh, that that could be. But they seek discovery 
and invention, and scientists and engineers understand that it 
moves at its own pace. It is not a pretty process, the 
scientific method.
    But if we don't invest there, I guarantee what we will get 
in 8 years: nothing. If we do invest and we invest wisely, we 
will continue the wonderful innovation and economy engine that 
we enjoy in this country.
    And I know what the bells mean.
    Mr. Reichert. Mr. Undersecretary, if I could interrupt. We 
are going to continue. We do have a vote, it sounds like, here.
    Maybe in the process of answering some questions that the 
numbers might have, you could touch on some of the other 
initiatives in your plan.
    I testified before a number of hearings in my own community 
as the sheriff in our county council, as it is called in 
Seattle. And it is sometimes frustrating, as the witness, to 
have all this information and want to impart it all and then be 
told that we would like to ask you some specific questions.
    So if we can go to Mr. Pascrell, and hopefully you might be 
able to touch on some of your other initiatives as you answer 
questions.
    Mr. Cohen. My pleasure, sir.
    Mr. Reichert. And we will come back. Yes, we will come 
back.
    Mr. Pascrell. Mr. Etheridge cannot come back, so I will 
yield to him, with your permission.
    Mr. Reichert. The chair recognizes Mr. Etheridge for 5 
minutes.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Undersecretary, thank you for being here.
    You touched on a couple of things, and one of them was 
people, and no organization is much of anything without people. 
You know, you can have charts, you can have visions, but the 
quality of folks you have around you determines how successful 
you are to be, and you know that. And I have had that privilege 
in my career to work with a lot of fine folks.
    My question is, though--and you knew this when you took the 
job, so it is not anything new--I think morale at the 
directorate is at a very low point, to be kind. That is pretty 
well common knowledge from what I had read. And it is very low, 
and there are literally dozens of vacancies in some very high-
level positions.
    So my question is--you touched on it, and I will give you 
an opportunity to expand on it--how will you improve morale 
within the directorate and attract the kind of high-level 
motivated workforce that everyone envisioned that would exist 
in the department when it was created-- And some were there; 
many have left.
    Kind of describe, if you will, some of the specific things 
you have in mind. I think that is critical if we are going to 
be successful. We can't be successful, I think, otherwise.
    Mr. Cohen. Well, Congressman, you are exactly right. And I 
have a track record of being assigned throughout my career to 
situations very similar to this. You don't have a turnaround, I 
guarantee you, in one day. It requires a vision to be put in 
place. It requires a consistency of that vision and effort.
    I will tell you I only serve with volunteers. On my very 
first day on the job, I met with all hands, voluntary. It was 
Friday in the summer. I didn't want people to come in. I laid 
out what my vision was. I was not prepared to brief, of course, 
this reorganization. That is something that we have worked on 
over the last 3 weeks.
    I think the people in the S&T Directorate were suffering in 
part from reorganization fatigue. Whether this is a good or bad 
organization, I know it works, and I think the people have 
embraced it just because they want to get on with the process.
    You have given me tools. Thank you so much for the DARPA-
like IPAs, the Interagency Personnel Act, where I can bring in 
people from industry and elsewhere. I also have detailees who 
will come in from the national labs. We have people who will 
come from universities and centers of excellence, which 
likewise you have provided for.
    But at the end of the day I must have within my full-time 
equivalent, my FTE limit, which you have been very generous 
with, that core, that cadre of government service people who 
perform inherently government functions to get it right.
    So in the 3-plus weeks I have been on board, I have gotten 
approval for an organizational construct which works, which I 
am used to and which my customers and providers are used to 
from my 6 years at the Office of Naval Research. I am 
communicating with my people.
    But at the end of the day they will feel satisfaction, or 
not, based on mission success of the directorate, the 
department and the nation, and what role they played in 
enabling that, and the respect and value that they believe that 
I and the rest of Homeland Security leadership and the customer 
places in them.
    And I can tell you, Naval Research, in my last 2 years, I 
didn't defend my budget. My customer defended my budget to the 
chief of naval operations and the secretary of the Navy. I met 
with the commandant last night and the head of the Secret 
Service. I have met with Kip Hawley. They get it. As customers, 
they understand they are in the driver's seat.
    And the more we do, the more they will want, the more the 
American people will want, and I believe we will see a very 
positive spiral.
    But it is about leadership, sir.
    Mr. Etheridge. I couldn't agree more, and I look forward to 
it, because I think the longevity of it is going to be 
determined. You can bring people in. It is going to be about 
the people who are there who stay through thick and thin.
    Let me go to one other point before my time runs out.
    In the aftermath of the London liquid explosion terrorist 
plot that you alluded to earlier, some disturbing news was 
brought to light about the administration's priorities. 
According to the Associated Press, the administration's 2007 
budget asked to take $6 million from the S&T's 2006 budget for 
developing explosive-detection technology and divert it to 
cover a budget shortfall in the federal protective services, 
which provide security around government buildings.
    Now, that probably is an important priority. Don't get me 
wrong. But here is my question. It sets an example of what is 
important in this area and agency you are in.
    As undersecretary of S&T, what steps will you take to 
ensure that the administration recognizes the importance of the 
R&D that takes place within your directorate-- And how will you 
influence them to invest in real threat areas, which I think is 
critical--
    Mr. Cohen. Well, Congressman, the facts of life are, in my 
opinion, that the threats--and this is true in warfare, it is 
true in medicine, it is true in police work--the threats far 
exceed the resources we have available, and so we must 
prioritize. We do that in our personal lives. We do that in 
government. And that is a balance.
    Now, when we talk about the mandated spending block here, 
after the tragic events of 9/11--and we have an anthrax attack 
going on. We have airplanes being used as bombs. We didn't know 
what was going to be next. The Congress and the administration 
together looked at the risk of an event versus the consequence 
of an event.
    And as I understand it--this was not my lane at that time. 
I was trying to save life and limb of Marines and sailors in 
the away game. The decisions were generally made,and they were 
funded this way, that chem, bio, nuclear and radiological, 
because of the consequences, should get immediate actions.
    And I think great progress has been made there. But in 
doing that, other priorities, whether it was liquid explosives 
or improvised explosive devices here in the homeland, et 
cetera, then had to find their way.
    What I hope to achieve and will achieve--you will see a 
little bit of it with the help of OMB in the fiscal year 2008 
budget, but we are pretty far along. You will see it fully 
developed in the fiscal year 2009 budget--again, the staff has 
been very helpful--is to put in place the process--and much of 
this has come a long way already--to determine the risk versus 
the consequence and ensure that we don't leave any area 
uncovered. But it is always about setting priorities.
    And I provided to the staff my brief on the liquid 
explosives. On day one of the job, I set up a rapid response 
team so that we could focus on this. It involved the 
Transportation Security lab in Atlantic City. It involved my 
program managers and scientists. We had been working on 10 
commercial off-the-shelf devices for over a year. In April, we 
had gone out with Small Business Innovative Research, a program 
that the Congress wisely provided. We had three additional 
devices. We are in the process of taking them to Socorro, New 
Mexico, to test them against real-world, Gatorade-sized liquid 
explosives.
    And I went out with a request for information within the 
week, and I am pleased to tell you, ladies and gentlemen, that 
we have had 30 respondents come in with some exciting new 
technologies. And we paralleled that request for information 
with using the Safety Act that you gave me authorities to do to 
further encourage people.
    So the short answer--and I obviously don't give short 
answers, I apologize--is that it is all about priorities. I 
will do my best, but I look forward to working with you and the 
staff to help me set those priorities.
    Mr. Etheridge. Thank you.
    And thank you, Mr. Chairman.
    And all I would say in closing, Mr. Chairman--I know my 
time has expired--is 2009 is a long time to wait for liquids. 
It is a long time.
    Mr. Cohen. --I can't wait.
    Mr. Reichert. And the gentleman's time has expired.
    Mr. Pearce is recognized.
    Mr. Pearce. I thank the chairman.
    And I would note that I was concerned when I read the 
reports of the A.P. story about the implication that the 
president was somehow taking money away from research that 
would have affected aviation and all. And as we looked deeper 
into that, we realized that the $6 million in question was not 
specific to aviation and was not going to be spent this year; 
that it, instead, was dedicated to improvised explosive 
devices, which I am familiar with, very familiar, because we do 
much of the research in New Mexico for the IEDs. And so we are 
doing quite a lot in that field already.
    In the 2006 budget, DHS is spending over $700 million this 
year on aviation explosive-detection systems. And so I think 
the A.P. was somewhat misleading.
    New Mexico is, Admiral Cohen--we are indebted to you, sir, 
because you were the naval research officer for New Mexico and 
worked on fresh-water systems, which in New Mexico is 
absolutely essential. Also helped bring the Magdalena Ridge 
astronomical observatory up to speed. And it is nice seeing you 
in this role, because we have seen you in New Mexico balance 
the needs of budgets and research.
    I am not sure if you are familiar, but New Mexico really is 
the site of independent research, and I just recently in the 
last 60 days came across a small company there that is 
researching for on-the-border security. We are right on the 
southern border. The technology would work on either border, 
but they have established laser footprints, and then they have 
established sensors that would allow unmanned aerial vehicles, 
UAVs, to be circling overhead, interrogating these sensors on 
the border, detecting both chemical and nuclear threats. Almost 
every chemical threat has a laser footprint that they have 
identified.
    I have asked and they have said probably with $6 million or 
$7 million--and this is where your idea of what to invest in 
and where--with $6 million or $7 million they probably could 
make the technology for under $100 to interrogate every 
shipping container that comes into the U.S. for very, very 
small costs. Again, doing that with UAVs far offshore before it 
gets into the ports.
    And these are the kinds of innovations that I think, 
Admiral Cohen, that America is looking to you to bring to the 
surface and to find these independent entrepreneurs out here 
who are solving the problems right now.
    I know that if we unleash the imagination and, really, the 
innovative genius of America, we can fight off all of the 
attempts to destroy us. And I believe, like you do, that there 
are people out there who would categorically destroy us with no 
second thought.
    And so, I appreciate your service in the past and look 
forward to working with you here on this particular initiative.
    And I guess my question is: What kind of research are you 
seeing in the first days of your job that would help us secure 
both the northern and the southern borders-- This is a very key 
area for New Mexico.
    Mr. Cohen. Well, first of all, thank you for your very kind 
words. And I will follow up with your staff on this specific 
company. I was not personally aware--I am sure my people were--
of the science of the laser footprints, although we were using 
similar things for the liquid explosives.
    Mr. Reichert. Mr. Undersecretary, if I could interrupt. I 
am sorry.
    We were expecting someone to return to take my place so I 
could run and vote, and I don't think Mr. Pearce has voted.
    Mr. Pearce. I have not.
    Mr. Reichert. We are going to take a brief recess so that 
Mr. Pearce and I can vote and we can return.
    Mr. Pearce. That will be fine. I will have to read his 
answers. I have got a committee I need to start chairing again 
shortly, but we will look to the comments.
    Mr. Reichert. We have a minute and 30 seconds, I think, 
so--
    Mr. Pearce. Well, I am much faster than you, Mr. Chairman.
    [Laughter.]
    Mr. Reichert. We will be right back. We are in recess.
    [Recess.]
    Mr. Dent. [Presiding.] I would like to bring to order this 
recessed meeting of the Subcommittee on Emergency Preparedness, 
Science and Technology.
    I gave the chairman an opportunity to vote, and I would 
just like to ask a few questions of you, Mr. Secretary.
    Mr. Cohen. Yes, sir.
    Mr. Dent. My district has several academic institutions 
that are engaged in advanced technology research that may have 
some homeland security applications. These institutions need 
infusions of capital to help them with their projects from a 
theoretical stage of research, from the drawing board, if you 
will, to some type of application more to the practical.
    In addition, I have been approached by many entrepreneurs 
and other inventors in my district who have ideas that will 
help us in our efforts to secure the homeland, but they need 
money to develop their ideas into something concrete and 
tangible.
    I guess the big question I have is: What kind of effort is 
the S&T Directorate doing to assist these inventors, 
universities and think tanks to develop cutting-edge 
technologies that will help us in this global war on terror--
    And at times I feel like I have a parade of people outside 
my office with ideas, and I really need help to direct them and 
their ideas in some way that is meaningful.
    Mr. Cohen. Well, it is an excellent question. It is not 
limited just to your district or your good constituents.
    And I might say, I spent many summers in Allentown where--
    Mr. Dent. It is the center of the universe.
    Mr. Cohen. --my relatives lived. I haven't been back to the 
new amusement parks. I look forward to doing that.
    During my confirmation hearing in the Senate, one of the 
questions I was asked was, would I continue to have my open-
door policy and be accessible to small entrepreneurs, the ma-
and-pa's, as well as the large contractors, as I had been at 
the Office of Naval Research-- And the answer is absolutely.
    Because nobody has a monopoly on where good ideas come 
from, and you have given us the SBIR, the Small Business 
Innovative Research, dollars and processes to try and cultivate 
those ideas. You have also given me a robust budget to invest, 
and we have elected to do that in large measure through the 
centers of excellence, which I know is now looking at some 
legislative revision. I look forward to working with the 
committees to make that as right as we can, so that we are 
investing in the unfettered research in the universities.
    But at the end of the day, there has to be a sense by the 
entrepreneurs that they will at least get a fair hearing and 
then have the monies available to be invested if we determine 
that there is a possibility of their idea developing into a 
successful application for a homeland security mission.
    And so I have got many tools to do that. I will put that, 
as I did at the Office of Naval Research, Web pages in place, 
something that I call ``technical solutions,'' where people 
could come in directly once we posted requirements that we had. 
The SBIR, we will have outreach, fairs in various districts 
around the country.
    So at the end of the day, I have no shortage right now, 
sir, of people calling me at night, e-mailing me at home, 
sending me letters. And on the liquid explosives, we have 
already gotten 30 responses, many from small groups, that I now 
want to work with to develop that technology.
    Mr. Dent. That is precisely the issue, that, you know, most 
members of Congress aren't the best people necessarily to vet 
these ideas. And we simply don't have the technical expertise.
    But many of those small entrepreneurs are intimidated. You 
know, how do I approach this big bureaucratic model called the 
Homeland Security Department-- And that is what the fear is. 
And how we can help them navigate this, I think, would make us 
all feel a lot better.
    And I appreciate your openness and your accessibility to 
these ideas. Because if I am getting, you know, a parade 
outside my office, I can only imagine what the line is outside 
yours.
    But another question I have is, what role, if any, does the 
Homeland Security Advanced Research Projects Agency play in all 
these efforts you just described--
    Mr. Cohen. Well, to me--and it is one of my four quadrants. 
It is the upper-right quadrant.
    Mr. Dent. And I have a hard time seeing the quadrant. I am 
sorry about that.
    Mr. Cohen. The brief is in front of you, sir.
    Mr. Dent. Yes. I have it here.
    Mr. Cohen. That might be helpful.
    But, to answer your question, sir, the Congress very wisely 
incorporated HSARPA in my directorate. I believe that that 
should represent about 10 percent of my budget.
    You can take that as tithing, but that is what I did in 
Naval Research. I took 10 percent of the budget with the full 
approval of the civilian and military leadership, as well as 
the Hill, and we put that at risk for high-gain, high-risk game 
changers in a period, as you can see here, of 2 to 5 years.
    These are prototypical. They are outside the acquisition 
system. They fast-track promising technologies. And they give 
us a capability that, in some cases, an order of magnitude 
better. And you can define that however you want: by sensors, 
by cost, by timeliness, by effectiveness.
    But with the opportunity to do that comes the possibility 
of failure. I don't view failure in S&T as a negative. When you 
look at the scientific method and you look at the opportunities 
to gain, I don't do acquisition. I do science and technology. 
If I put millions at risk, it will save billions of acquisition 
from being at risk. So this will be a very robust area.
    And, in answer to your question, 1 percent of my budget I 
intend to devote to what I will call home works--home works. In 
Navy, it was called swamp works. At Boeing, it is called 
phantom works. At Lockheed Martin, it is called skunk works. 
These are the highest risk. The probability of failure exceeds 
the probability of success. But, boy, it is such an asymmetric 
advantage if you get it right. And even if you don't get it 
right the first time, it tells you where you have to adjust 
your investment portfolio to then get that capability.
    Mr. Dent. And I guess as a follow-up to that question, I 
spent some time out at the DNDO out in Nevada this past winter. 
And that was an issue that I noticed, that we are demanding a 
lot of technology. And, of course, we have to go through the 
scientific method. You just can't mandate science. You can't 
mandate a repeal of gravity. You have to work the process. And 
it is very frustrating for some of us, I know, in government.
    But I think you drive your point home quite well. And the 
point is that millions in investment can save you later 
billions in acquisition. And you stated that quite well.
    What effort is your directorate doing to make and to expand 
extramural research in developing that testing evaluation-- 
What are you doing in that area--
    Mr. Cohen. If I could just skip ahead very quickly, again, 
I believe the Congress wisely incorporated both test and 
evaluation and standards in my directorate.
    Now, my S&T function is in the block just to the left. I 
currently have a T&E and standards group. I will provide a 
director for that as a direct report to me.
    T&E is critically important to ensure that we don't buy no 
junk, and that we give to our customers and our first 
responders things that work and meet the specifications of the 
precious taxpayer-dollar investment. T&E is critically 
important.
    Because we need to be agile, our enemy is agile, you will 
see a systems development approach in my organization, where we 
have a continuum between contractor test, developmental test 
and operational test. That is the start to the finish.
    You know, so many of the things you see on ``Headline 
News''--and this is a little frustrating--where good people 
bring prototypical devices and put it up against a bottle and 
say, ``See, it says water. See, it says explosives. See, it 
says wine.'' When you take them, like Consumer Reports or 
Underwriters Lab, to an objective evaluation, you find out that 
they don't always perform quite as advertised.
    Now, that is not bad. You just have to know it. Then we can 
work with them, tell them where it falls short, and then we can 
improve that.
    Standards, likewise, need to be outside of the research 
portion of my portfolio, because if they are embedded in the 
research, they won't be objective.
    And I have to deal with a span starting with the sheriff of 
Mayberry. If he has a catastrophe, he brings in the county 
police. Then you bring in the State Police. Then you bring in 
the National Guard. Then you federalize the National Guard. 
And, finally, here comes Northern Command with DOD forces.
    As we scale up and we scale down, the standards for 
interoperability are critically important if we are not going 
to lose the common operating picture at each step in the way.
    I am very familiar with NIST, National Institute of 
Standards and Technology. Arden Bemet, who is now with NSF, is 
a mentor to me. And we will leverage that to the maximum 
possible.
    But I appreciate that responsibility that you have given 
me, and I take that very seriously.
    Mr. Dent. And, just speaking of the visit to the DNDO, when 
you develop these technologies, how much thought are you giving 
into the overall architecture--
    It is one thing to develop the technology. It is another 
thing that the guy at Border Patrol is able to utilize that 
technology or the Customs and Border Protection people can 
utilize that.
    How much thought are you giving to the overall architecture 
and how that technology applies--
    Mr. Cohen. What we do in S&T--and this is confusing and 
upsetting for people, because we are so optimistic in this 
country. And we believe, with enough money and enough time and 
enough focus, that we will cure cancer and we will cure AIDS. 
And if we say we are going to put a man on the moon, we put a 
man on the moon. I mean, that is who we are. That is our 
national culture.
    But S&T can provide solutions and opportunities, some of 
which are breakthrough and change paradigms.
    But at the end of the day, it is the customer, it is the 
organization that is tasked with fulfilling the mission, that 
picks and chooses the S&T to satisfy with cost concerns, time 
concerns, size concerns--there are a variety of criteria we 
use--to meet their needs.
    And so I can propose and I can work and I can help resolve 
issues and standards, whether it is FAA or FCC, et cetera. But 
it is up to my customer, the operating agencies and 
directorates, to run with that ball. I just enable them. I 
can't do it for them.
    And I think that is a misnomer that has been true 
throughout S&T for a long time. I can only take it so far, and 
then I have got to follow the customer. But I am going to 
enable the customer.
    Mr. Dent. And my final question, and then I am going to 
hand the gavel back to the chairman: Do you think your 
directorate is doing enough to tap into the research 
proficiencies offered by colleges and universities, 
particularly those with the strong engineering and science 
departments, like I have in my district, like Lehigh University 
and others--
    Mr. Cohen. The honest answer is I don't have enough 
experience in 3 weeks to tell you. I prefer not even to take 
that for the record, because I would be giving you an answer 
without experience. I would like to get back to you as we move 
forward.
    My sense is we have a robust program, but it may not be 
aligned with the directorate and the department mission needs.
    Mr. Dent. Well, thank you, Mr. Secretary.
    Mr. Reichert. [Presiding.] The chair recognizes Mr. 
Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Before I ask some questions that I prepared, Mr. Secretary, 
I wanted to ask you this question. You talked about you didn't 
control labs when you were in the Navy. And then you talked 
about the public-private--you didn't use the word 
``partnership,'' but I will use the word ``partnership.''
    Now, homeland security has become an industry. And when you 
review all the departments in Homeland Security, we have seen a 
lot of problems, a lot of trouble. And folks who created much 
of that trouble are gone now. So when we try to bring them 
before the committees, it is not easy to do.
    You create an industry. Then the industry comes to your 
door step, writes us letters and says, ``I got this thing that 
is going to blow your mind.'' Okay-- Most of the time, it 
doesn't. But we want to extend the courtesy to that 
corporation, that company, that industry. But we want to do it 
the right way.
    How are you going to prevent the retailing of science and 
technology-- I think that is a danger. Maybe you don't.
    And folks come to you with product, with idea. I don't 
think we should be adjusting the security to the product. I 
think that we should decide, we who are given that 
responsibility, like yourself, as to what that security should 
entail, and then what products do we need to do everything in 
our power to ensure the development within that specific area--
    I mean, am I on the wrong trail here--
    Mr. Cohen. Sir, I think you and I are in violent agreement.
    At the end of the day, the administration, the Congress, 
for me, Secretary Chertoff, establishes strategic goals. We 
understand what our mission is.
    We have a robust intelligence organization in this country, 
and with our allies that tell us what the most likely threats 
are. We have an overseas presence--
    Mr. Pascrell. And we prioritize those, as you mentioned 
earlier, you know, before.
    Mr. Cohen. Yes, sir.
    Mr. Pascrell. Not everything can be on the same level. We 
think that we are more likely to get an attack this way, rather 
than that way, so now you got to deal with that within your 
privy.
    Mr. Cohen. And honest people will disagree. This is not a 
political statement. You know, scientists, engineers, military 
people disagree where the attack may come from, et cetera.
    And that is very complex. You do the best you can do. This 
is why it is an inexact science on the threat and in the 
intelligence side, as opposed to the scientific method that 
gives us the device to locate a specific explosive or specific 
threat.
    But what I have done--and I am not going to get back to 
view graphs--is, as I look at my responsibilities and I look at 
the threat--and I gave you the ``four B's,'' which is quite 
simplistic, but is pretty important to me, and from the body 
language, I could see a lot of nodding of heads--is, what I saw 
in the last 3 weeks in my directorate was, because of the focus 
on chem-bio and the focus on nuclear-radiological, et cetera--
    Mr. Pascrell. Right.
    Mr. Cohen. --the good people in the directorate over the 
last many years have been trying to respond to that, get 
product out the door. And great progress has been made. We can 
talk about that offline.
    But when you align to projects, it does exactly what you 
said, Congressman. As the projects evolve or change, and you 
have an agile enemy, every time you change you would have to 
realign.
    So what you find in the most successful S&T management 
organizations is there are enduring areas to focus on. Those 
were different in the Navy than they were for the Army, than 
they were in Air Force. And that prevents the duplication of 
precious resource investment.
    What Secretary Chertoff has approved has six departments. I 
believe these are enduring. They are not forever. They may wax 
and wane, but they are fundamentally what you will hear from me 
in the time. And I plan on being accountable and I plan on 
being here for as long as you will have me, or until you 
recommend I be fired--or--
    Mr. Pascrell. No. You are not the one.
    [Laughter.]
    Mr. Cohen. No. No. I want you to know, you know, I take 
my--I love accountability.
    But energetics, things that go bang. That doesn't include 
nuclear, because, as you know, DNDO, we followed a model where 
it is cradle to grave because of the consequences there--
    Mr. Pascrell. But you understand the point, obviously, that 
I am driving at-- And that is, we want to make sure that this 
is transparent, this system. And we want to make sure that 
there is no collusion.
    This is an easy way to have collusion, really, in what we 
are doing. I mean, we are just, you know--we just started this 
thing. And we got to be very careful about when we contract 
with people. We saw with the contracts overseas and contracts 
down in the Gulf. We know what that story is.
    Let me bring up another specific example, and you can apply 
the principle that we are talking about here. You know, we talk 
about principles once in a while in Washington. I got to 
remember that.
    [Laughter.]
    Mr. Reichert. I will write that down.
    [Laughter.]
    Mr. Pascrell. Thank you.
    What about the checkmate in terms of liquid explosives--
    I went back into the literature, I went back into the 
narratives, and, you know, this was talked about, touched upon, 
not really extensively, several years ago. And we were 
basically talking about powder explosives. We didn't get too 
much discussion, as far as I see, into liquid explosives.
    And is there product there-- And what should we be doing-- 
How do we get that product, if it has been developed, to the 
infrastructure which is under TSA-- God bless them, again.
    Mr. Cohen. Well, again, remember my model is customer-
based.
    Mr. Pascrell. Right.
    Mr. Cohen. And it is a customer-suction. So we start with a 
concept. We rapidly test its efficacy against real world. That 
is what we are doing in Socorro, New Mexico.
    Mr. Pascrell. But where are we in the real world about 
liquid explosives detection--
    Mr. Cohen. Short answer, for the last year at 
Transportation Security Lab we have had 10 COTS--Commercial 
Off-the-Shelf--devices in tests. They are now at Socorro, New 
Mexico, being held up against 500-milliliter Gatorade bottles 
that have the explosive mixture in them. Not a simulant.
    Mr. Pascrell. Right.
    Mr. Cohen. We have three additional devices that came as a 
result, in April of this year, from an SBIR, Small Business 
Innovative Research, initiative that my director had taken.
    Three weeks ago I went out with a request for information. 
We have 30 respondents to that, of which we have 10 technology 
devices.
    And we have committed that, within 30 days of receipt, we 
will send the offer and the device to either Tindle Air Force 
Base or Socorro, New Mexico, to test it against real world. If 
it is successful, or has the promise of success, we will fast-
track it with that individual to further develop it to make it 
a product that TSA--Kip Hawley's screeners can use.
    Now, in the near term, we are going to be limited to 
handheld devices and other controls. But the goal in a HSARPA 
world would be to have a portal where you didn't have to hold 
up things, but rather--and Congressman Pearce just shared with 
me, while you were gone, there is a small firm in New Mexico 
that is using laser technology from afar to see the traces of 
chem-nuclear-biological.
    So it is a continuum. But in the end, it has to meet TSA's 
requirements for throughput, false positives, reliability, 
maintainability. That is the real world we live in.
    Mr. Pascrell. Can I just ask one more quick question, 
Congressman-- And then you can go to the next person.
    We have CDC, as you well know, when we are dealing with 
health matters. They have labs. They have labs down there.
    Now, you say your experience has shown--and now that you 
are the head of the directorate, you are relying, it seemed to 
me, on 99 percent of the labs in the private sector. Is that 
true--
    Mr. Cohen. No, sir.
    Mr. Pascrell. It is not true.
    Mr. Cohen. You very wisely, very wisely--as I said, the 19 
pages of implementing legislation were very well thought out.
    Now, look, it is a new department. And I am used to, as a 
nuclear submariner, with fission. And you all attempted fusion. 
You tried to take 22 agencies, with all their culture and 
history and--
    Mr. Pascrell. You had to remind us, didn't you--
    Mr. Cohen. --and put them together. And I will tell you, I 
think it is taking hold. I really do.
    It is tough, but look, we are 20 years--you know, 
Congressman Skelton would talk to me all the time, and Chairman 
Hunter, about Goldwater-Nichols. We are 20 years into 
Goldwater-Nichols, and we have made enormous progress. But, you 
know, we still have Navy blue and Army green. We don't all wear 
purple. So there are cultures, and the cultures are important.
    But you gave me access to the Department of Energy labs. 
These are incredible labs with chemistry and physics. You have 
invested hundreds of billions of dollars over the years.
    So what I did, as soon as I stood up the rapid response 
team, on the 11th of August, for the liquid explosives, we had 
a video teleconference that included all of the DOE labs; my 
labs, which are small labs; and the centers of excellence that 
we have set up, the six, for the universities. Then we went out 
to industry, the RFIs.
    The day of private labs in this country, like Bell Labs and 
IBM, is gone. It is gone.
    And this is where the federal government and their vision 
and their commitment to critical mass funding of long-term 
research is so important, not just in homeland security, but 
for our very economy. And I salute you for that.
    But the last thing you did--and I sound like Ginsu knives 
here--the last thing you did in the legislation was, you 
basically said in this new directorate--and the Chairman 
addressed this in his opening comments--you don't want me to 
reinvent the National Institutes of Health, and you don't want 
me to reinvent the DOD labs.
    You have given me the DOE labs to leverage. You have told 
me that my incremental costs will be the same as the parent 
departments. Thank you so much for that.
    But you have got one little line in my legislation that 
makes me the dominant S&T executive in the department of 
government, where you allow me, not to direct the requirements 
of DOD, DOJ, DOT, but you allow me full visibility and allow me 
to leverage their research, their investment, so that my monies 
can be wisely spent on the incremental improvement to tailor it 
for the specific missions of homeland defense. And I thank you.
    Mr. Pascrell. If you can do that--I mean, we did do a 
couple things right. But if you can do that, I think then you 
are going to be on course. It is our job in oversight to make 
sure you do it. And we need to expedite what we have been 
talking about.
    Mr. Cohen. Yes, sir.
    Mr. Pascrell. We need to move, and you know what has been 
done. You know what is in the past. I don't want to go back to 
the past. I want to look into the future.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you.
    Mr. Cohen. Well, sir, if I might say, I tend to drive 
looking through the windshield, not the rearview mirror.
    Mr. Reichert. As a former cop, that is good.
    [Laughter.]
    Mr. Cohen. I am old, and I don't speed.
    [Laughter.]
    Mr. Reichert. Mrs. Lowey, you are recognized for 5 minutes.
    Mrs. Lowey. Well, as a New Yorker, let me just say I wish 
you good luck.
    Mr. Cohen. Thank you.
    Mrs. Lowey. And as a congresswoman, as a citizen of the 
United States that is trying to sort out the responsibilities 
of the Department of Homeland Security, the continuous 
reorganizations, and the snail pace at which everyone operates 
worries me as a grandmother of seven kids, frankly.
    Because when you say 2 to 5 years--and you read these 
stories in the New York Times just this last week. I am not 
going to read the quote where Michael was talking about how 
outrageous everything is. Maybe Goldwater-Nichols is the 
answer, but at this point, we are constantly frustrated by the 
lack of progress.
    Now, I understand how difficult it is to keep up with the 
terrorists. And I also serve on the Foreign Operations 
Committee. And you read what Abizaid is doing in terms of 
building clinics and schools, et cetera.
    But thank goodness you are focused here on these 
responsibilities. And I really wish you good luck. Because if 
TSA is making decisions separate from your oversight, and you 
are not coordinating adequately, and, as we heard from that 
last hearing, multimillion dollar contracts are given out and 
then they can't get it to the market fast enough, it is really 
tremendously worrisome.
    So I just hope this organization is done and you can get on 
to the substance. Otherwise, who knows-- After this election, 
we may have to have another reorganization. You just don't 
know.
    So I just want you to know I wish you good luck.
    Just another example. I am not sure if it is even under 
your purview. Before I get to interoperability, Mr. Chairman--I 
gather that wasn't touched on today as yet. They are probably 
waiting for me. You left that for me to deal with.
    But I am very pleased to take my shoes off. I am sure you 
are aware in all of our airports in this country there are 
people who do maintenance. There are people who do food 
service. Not only don't they have to take their shoes off, they 
don't have to go through the metal detectors. They get a badge.
    In addition to interoperability, I have been talking about 
that. I think it is outrageous. I can have my badge saying 
``Congresswoman,'' and I am very happy to take my shoes off. 
But they get a badge. It is not re-inspected more than every 2 
or 3 years. And they can go into the secure areas.
    So I really worry about that.
    And we know what happened at Heathrow when one of the 
accused was a worker there. And they are moving much faster 
than we are in that regard.
    So I wish you good luck.
    With regard to interoperability, because I think it is 
directly related, I am really interested in how your plan 
affects first responders.
    In my district, the one topic they mention over and over 
again is interoperability. We have been talking about it--the 
chairman, Mr. Pascrell, myself--for many years now.
    When I read the inspector general's report in March, that 
S&T has not approved a single standard for interoperability, 
this is, frankly, astounding to me. Communication failures 
plagued first responders in every major emergency in the last 
15 years. We still do not have a single standard.
    I am not going to quote the former secretaries, who 
promised, you know, a couple of months, a couple of months.
    Public safety agencies are spending billions of dollars 
building and upgrading communication networks, but the federal 
government is there, not providing any assistance.
    Unfortunately, what is happening is our local first 
responders, our local towns and villages, can't wait for the 
federal government. So they are acting responsibly, building 
wireless networks that will save lives.
    Now, I know you have only been at the department less than 
a month. Can you possibly tell me, based upon your experience 
and your involvement in this reorganization, why there have 
been so many delays in issuing interoperability standards--
    Mr. Cohen. Well, Congresswoman, I honestly can't. I would 
be glad to take that for the record, just to document what the 
problems were.
    But you and I are on the same page with interoperability. 
This is not unique to first responders. It is just exacerbated 
with first responders because we have state, local, et cetera. 
But even in the Department of Defense and in coalition warfare, 
as you are very well aware, there are interoperability 
problems. There are frequency problems. There are cipher 
problems.
    That is not meant to make excuses.
    One of the things I said earlier, while you were at the 
vote, is, in my view, if you start with the sheriff of 
Mayberry--and the scale of my responsibility takes me from the 
sheriff of Mayberry to the New York Police Department, and it 
takes me from the tribal volunteer fire and driving a 1940 
LaFrance Pumper, up to Chicago's exceptional fire department.
    So, what I do has to be scalable, has to be affordable, has 
to be durable. And all those are good words.
    I will tell you, shortly after 9/11, I was called up to New 
York City by the police commissioner. And they were focused on 
radiological issues. They didn't know what was going to come 
next.
    And the police commissioner took me in a room. I was chief 
of naval research. And, you know, they had about three dozen, 
maybe four dozen RADIACs. These are radiation detectors, 
handheld. He said--this goes to the comment of retailing and 
the cottage industry that has developed. Everyone wanted to 
sell the New York Police Department RADIAC detectors to put in 
the patrol cars, et cetera. He said, ``Admiral, I don't know 
what to buy. This is outside our area of expertise.''
    And I said, ``Commissioner,'' I said, ``if you will send 
one knowledgeable patrolman,'' meaning on the use of these, how 
they might be used, ``come down to the Naval Research 
Laboratory, and we will test them against the specifications 
that the manufacturer has said. I am not going to tell you what 
to buy, but I will tell you, do they meet the specs-- Do they 
do it in a timely manner, et cetera-- Are they durable--''
    We did that. They were very thankful, et cetera.
    So I take my responsibilities for test and evaluation--so 
we don't buy no junk--and for setting standards very, very 
seriously. As a New Yorker, Congresswoman, you know I don't 
have a lot of patience. That is not one of our traits.
    Mrs. Lowey. You are absolutely right. You are absolutely 
right.
    Mr. Cohen. But I can't promise you the world. I can tell 
you, when you get into the standards, you get into 
interoperability, you cut across city, state, county and 
federal lines, you get involved with the FCC, it is a cauldron. 
But I think our national security deserves better. And I will 
work toward that.
    Mrs. Lowey. Well, as I understand it, it is not a technical 
problem. The technology exists. It is a matter of leadership, 
and there hasn't been any at the Department of Homeland 
Security.
    And I am not saying that you should be telling people 
whether to get Motorola or Cingular or this and that. But it is 
a matter of which technology should be used so there can be 
some coordination.
    Now, as I understand it, there are about 180,000 people at 
the department, and less than a handful are working on 
interoperability. So the real question is, do you intend to 
make first-responder communications--and you should be honest 
with us.
    You could say to me, ``Ray Kelly knows what he is doing.'' 
I have tremendous confidence in Ray Kelly, frankly. He 
duplicated and replicated his own international intelligence 
agency because he didn't have confidence in the CIA.
    So that may be it. But if you feel the OIC and SAFECOM need 
additional resources to get this done, I think it would be 
helpful for us.
    Because we all, in a bipartisan way, have been talking 
about this issue. And it is my understanding that Dr. Boyd, the 
previous head of SAFECOM and a leader on communications issues, 
was removed from the office several months ago.
    I didn't even know that. Thank you. He just let me know 
that.
    Can you tell me how leadership changes at SAFECOM may 
affect the progress you are going to make--
    I mean, it has been a revolving machine over there, so I 
understand the difficulty you are having. But we also 
understand that in the field, be it New York or any place else, 
New Jersey, Florida, any place else in the country, this is a 
priority. And it hasn't been a priority at the Department of 
Homeland Security.
    Mr. Cohen. Well, let me very rapidly address several issues 
you raised.
    First of all, I am a big fan of Commissioner Kelly's, and 
God bless him for what he has done. And I think he has set a 
model.
    And in my construct with international engagements, et 
cetera, you will see very many of the same things, because I 
cannot allow us to suffer from technological surprise. And you 
have got to be out there in the field.
    Number two, my vision and my experience with S&T--and we 
have talked a little bit about this previously--is, it is like 
the BASF commercial on the Sunday morning talk shows. They 
don't make the device, they make the device better. So S&T 
doesn't make the device. I make the device better.
    Now, concerning Dr. Boyd, he is a key player in my 
organization. I asked him to be my division head for C4/ISR, 
Command, Control, Computers, Communications, Intelligence, 
Surveillance, and Reconnaissance. He will have, as will the 
human factors, significant crosscutting responsibility in my 
organization.
    But as I look at SAFECOM, as I look at other product lines, 
one of the problems organizationally, in my opinion, is that we 
have tried to make the S&T Directorate both a service 
organization and an operational unit. It doesn't work.
    And so, as the department has matured, the delivery of the 
capability, I believe, should fit and rest with the operations 
and agencies that do that, like the TSA and Border Patrol, et 
cetera.
    I am there to hear their requirements, understand their 
shortfalls, find the cutting-edge technology and bring it to 
them in a timely, affordable and usable manner. And that will 
be the model that you will see from me.
    Mrs. Lowey. Now, does that red light count-- I am 
assuming--
    Mr. Reichert. Yes. I am going to--
    Mrs. Lowey. You have been very gracious, so--
    Mr. Reichert. Yes. Thank you. I--
    Mrs. Lowey. Thank you so much. I know we could go on, but 
the chairman has been very generous.
    And I know we all wish you good luck. And we hope that in 
the next couple of months you can solve these problems.
    Mr. Cohen. I will do my very best.
    Mrs. Lowey. We thank you very much.
    Thank you, Mr. Chairman.
    Mr. Reichert. You are welcome, Mrs. Lowey.
    We will have a second round, but I am going to be a lot 
tighter on the clock. There were a few members here, and we 
were interrupted by a vote. And so we will have a second round 
if others have questions.
    I want to just touch on my experience just a little bit and 
share some frustration.
    The sheriff's office in King County is 1,100 employees. And 
during my time there, I have watched the development--I started 
in 1972. Our first tool was a .38 revolver. It was a civil 
defense weapon, and the barrel didn't line up with the 
cylinder. So that is quite--you know, it is important that the 
bullets line up with the holes when, you know, you pull the 
trigger.
    But look how far we have come. But it has taken us a long 
time to--just in the first-responder law enforcement world. In 
1982, no computers. Working on a major case, a Rolodex file, 3-
by-5 note cards; a single person sitting down at a desk with a 
magnifying glass and a fingerprint card, physically looking at 
the card and counting the loops and the whirls. Now, AFIS, 
Automated Fingerprint Identification System. Now, live scan.
    In 1982, taking a body sample--blood, bodily fluid of some 
sort--looking for a blood type to lead to the arrest of the 
suspect. And today, DNA that identifies one person as the 
person who committed the crime, or it can identify a person who 
was not responsible for the crime.
    Tremendous progress in science and technology in the world 
of law enforcement.
    And then the new technology. As the sheriff, just a couple 
of years ago, officers wanted the new taser, right-- Buy a 
taser. Well, in one year the new model was smaller, more 
effective, safer.
    And so the things that you have to deal with, I understand. 
But there is the frustration with people on the street.
    Of the number of vendors, 800 to 900 vendors, who have some 
sort of an answer to, or piece of the puzzle to, 
interoperability, as Mrs. Lowey has described, 800 to 900 to 
1,000 vendors that have some piece of the puzzle, an answer to 
health I.T. and sharing of information.
    And so it also touches on the ranking member's question of 
the retailing of technology and the difficulty that local 
governments and local police departments and fire agencies and 
EMTs, et cetera, emergency managers have in weeding through 
this forest of technology. Which is better and what is going to 
work--
    How do you help local governments and local law enforcement 
and local officials weed through, now, all of this information 
that is out there to help them make the right decision-- You 
touched on it just a little bit, but I need a little bit 
clearer picture, I think.
    Mr. Cohen. Well, again, Chairman, my customers are the 22 
agencies and directorates within Homeland Security. And they 
have very clear missions defined in enabling legislation.
    The customer of the customer are the first responders, and 
we have already talked about that.
    I plan on dealing, to the best of my ability, in 
intelligent ways, whether it is Web-based, whether it is 
outreach--I can't do it one at a time, obviously, with 800--and 
I think those numbers, you know, may be low--
    Mr. Reichert. I agree.
    Mr. Cohen. --actually. This is an incredible country. You 
know, for Ms. Lowey, Tom Friedman, in his book, ``The World is 
Flat,'' if you watched him within the last month with Charlie 
Rose and with Tim Russert, he said, ``You know,'' he said, ``I 
had to revise the book because I was singing the praises of 
Bangalore, and I was singing the praises of China.'' And he 
said, ``I got my head handed to me by the entrepreneurs in 
America.''
    Because when you have a free country, and you have the 
venture capital that we enjoy, and we have the intellectual 
property protection, and we have the SAFETY Act, people come 
out. They rise to the occasion. And you couple that with our 
educational system, which has challenges, and wonderful things 
happen.
    So I view my responsibilities as almost schizophrenic. On 
one hand, I have to look for the next generation, cultivate it, 
make sure we stay ahead, because it is a flat world, and our 
discoveries are quickly leveraged.
    What I found in Navy is many of our suppliers have turned 
away from patents. Patents take too long. To them, it is first 
to market. They assume that their product, their intellectual 
property, will be leveraged by others who may not have the same 
standards or rules as we do.
    And so, get to the market. And Steve Jobs does this better 
than anyone else. With iPod and Webcast, he stays one step 
ahead. So I have got to do that.
    On the other hand, I have to do the more mundane things of 
the here and now, things that are nearly ready, are mature, and 
get them out so they are available, with standards, with 
evaluation, to the first responders.
    But at the end--and this is just a personal comment--I 
don't think the federal government can solve all of these 
problems. In the end, it is the New York Citys and the King 
Countys and the reservations that will decide for themselves 
the risk-consequence balance, decide where they put their 
precious investments, just as they do in education, just as 
they do in roads.
    I can enable that. I can facilitate that. But I can't solve 
it by myself.
    Mr. Reichert. Thank you.
    Mr. Pascrell--
    Mrs. Lowey. Could I just follow up, Mr. Chairman, and 
just--I was going to ask you to bear with me--
    Mr. Reichert. The young lady is recognized.
    Mrs. Lowey. --for just a moment, because that is an 
important issue.
    There are former members of FEMA--no names mentioned at the 
hearing--other federal officials, who are making mega millions 
of dollars today. I will get you this contrast. We read, and 
Chairman Mica was talking about this at the hearing, you know, 
$5.3 million here, $10 million here.
    That is an important question, and maybe you can respond to 
that. And maybe it has to do with interoperability, as well.
    Maybe you don't have a role in that. Maybe we just leave it 
to Commissioner Kelly and New York City to make its own 
decisions. Maybe we shouldn't be asking you for 3, 4--when did 
we start----5 years, for standards, and we can't get it out. 
Maybe we should let these salesmen just continue to approach 
the local governments and make the decisions.
    So maybe we should save all that money with the Department 
of Homeland Security, and I shouldn't be asking you for 
standards anymore.
    Mr. Cohen. I want to make sure that my comments were not 
misunderstood at all.
    I do believe that we will be most effective and efficient 
if we have national standards that meet the needs and are 
scalable from the sheriff of Mayberry up to the great police 
department of New York City.
    And there are federal responsibilities. And I look forward 
to your taskings and your support in doing that.
    But, in doing that, one size doesn't fit all. And I don't 
want to fall into the trap of, in any way, undermining the 
innovation or the authorities--this is not a political or 
philosophical; this is how we run our households, you know-- 
There are different personalities. There are different 
priorities, et cetera.
    And in terms of any predecessors or whatever, Ms. Lowey, 
let me tell you that I make less in this job--I didn't even ask 
what the salary was. I can tell you that up front. But I make 
less in this job than I made on the day I retired on active 
duty in the Navy.
    Mrs. Lowey. Just what do you mean, ``this'' job--
    [Laughter.]
    Mr. Cohen. You know, I will be an old--I am an old man, and 
I promise you I won't write a book.
    Mr. Reichert. I would like to take a moment to comment on 
your response to Mrs. Lowey's question.
    We passed the 21st Century Communications Act of 2006, 
which refers to standards, national standards, and it also 
directs that there be assessments and evaluations of current 
systems in place across the country. That was passed on the 
House floor about 2 months ago with a vote of 414 to 2.
    So people in the House of Representatives recognize the 
need for national standards and also recognize the need for 
someone to take the lead again, as some have said today, a 
leadership role in assessing what is out there currently.
    But there is certainly a definite need for a true 
partnership, where the federal government takes the lead and is 
also there in a supportive role as local governments and local 
officials build their own systems that fit their communities, 
but with a standard that is nationally set to ensure that their 
money is being well spent and that they interconnect with the 
state and national system.
    So I think that is really where we want to head. So we 
appreciate your answer.
    Mr. Pascrell--
    Mr. Pascrell. Yes. I have a few more questions, Mr. 
Chairman.
    First, I certainly believe that we should have national 
standards. I mean, you know, we have spent a lot of time airing 
it out.
    But we have a very different system than the British. I am 
convinced that they do something better than we do, but not too 
many things.
    [Laughter.]
    That is why we had the Revolution, and continue to have 
them, by the way.
    But the British believe more in a ground-up situation, 
bottom-up. We are top-heavy. We think that the folks at the top 
that the administration appoints, at these levels of government 
throughout homeland security, know best for the rest of us.
    If you don't ask cops, if you don't ask firefighters, if 
you don't ask EMTs, whether you are talking about 
interoperability or operability, whether you are talking about 
intelligence, you need to talk to the people who do the job 
every day and see what their needs are to combat the situation.
    We don't seem to get that. We don't seem to really 
understand it.
    Maybe they don't articulate it as we could articulate it. 
This is first--we are talking about safety here. We are not 
talking about articulation, you know-- We are talking about 
some principle here to get something done. I think the British 
have it right in that regard.
    My second point is this. I don't sense a sense of urgency 
in Homeland Security to do the things that need to be done in 
order to protect our families and our neighborhoods and the 
rest of the country. We have a lot of fear mongering. And we 
get people upset, create a lot of anxiety, make sure they are 
scared as hell. That doesn't help us, though, in the final 
analysis.
    I mean, not that you shouldn't be realistic. We want to be 
realistic. We don't want to hide anything. We want to be as 
transparent as possible.
    I don't sense that urgency. I am sorry, Mr. Secretary, but 
that is how I feel.
    But I want to get into the subject of basic research. I 
think that this is an area that has been neglected in terms of 
homeland security, myself. That is only my opinion.
    The Transportation Security Lab, in 2005, the Congress 
directed Science and Technology to control the TSL budget, 
where it proceeded to delay around 8 months in allocating the 
money.
    Again, we are looking ahead, we are not looking back. But I 
want to put this into perspective.
    Observers have said that the lab had to slow the projects 
and the operations that were--it was almost a standstill at one 
point. This year the Senate appropriations language mandates 
returning the lab to the TSA.
    The problem with this back-and-forth is that the scientists 
there are essentially being bounced around like a yo-yo, ping-
pong ball, between those two agencies, not knowing where they 
will land and not having a solid and predictable line of 
funding.
    What solution do you recommend for this problem-- And 
practically, who should control that TSL lab-- Who do you think 
should--
    And the question under that area of basic research is the 
following: How will basic research grow under your 
reorganization plan-- Now, I am not talking about technology 
now; I am talking about basic research.
    How much money in the budget is devoted to basic research-- 
And how much money should be dedicated in the future to basic 
research-- And what efforts are under way to support basic and 
applied research--
    You know the problems. Well, let's start with those areas.
    And a final point I wanted to make is, in conclusion, was, 
how can we help you-- Seriously. We have made it a practice on 
this committee, thanks to the chairman, to be, I think, 
bipartisan, because neither party is privy to virtue as to how 
we are going to save the country. But how can we help you--
    And in order for you to answer that question, it would seem 
to me--well, I know what your answer is going to be. In my 
mind, you have to make sure that you pledge not to be a 
sycophant, that you will be direct with us, and we will get you 
what you need, I promise you.
    Mr. Cohen. Well, sir, let me answer the last one first. No 
one has ever called me a sycophant.
    Mr. Pascrell. Good.
    Mr. Cohen. I have heard words like rude and obnoxious. And 
my wife would like me to behave better.
    Mr. Pascrell. Those words don't come to mind for me.
    Mr. Cohen. I am sure. And those of us who come from the 
greater metropolitan area can appreciate that.
    You can help me enormously because I don't have all the 
answers. I am just one person.
    I care about this country. It is an incredible ongoing 
experiment in democracy. And I don't read fiction; I read 
nonfiction. And I read ``The Election of 1800,'' and I read 
``The Founding Brothers,'' and we live in an incredible 
country. And, like you, my relatives were immigrants--
    Mr. Pascrell. Right.
    Mr. Cohen. --and so I have spent my life with an ethos of 
service.
    But just because I am service-oriented, like you are, 
doesn't mean that I am omniscient or that I have the right 
answers.
    And I certainly agree that defense--and whether it is the 
away game, the department of offense, or Department of Homeland 
Security, defense, it is bipartisan. It is nonpartisan. And it 
is a long tradition, a 200-and-nearly-30-year tradition of 
that. And I respect that so much.
    But you are the elected representatives of the 
constituents. And the constituents are the citizens. And the 
citizens are who our first responders look to protect.
    And, at a higher level, by bringing to bear technology, 
whether it is in intelligence or surveillance--and I mean that 
with a big ``S''--situation awareness, et cetera, detection, 
prediction, the psychology of terrorism, I believe that we can 
work to deter the terrorists. Because the terrorists are 
cowardly, and they only strike where they think they can get 
away with it and we have a vulnerability.
    Now, we will have vulnerabilities. We don't have to share 
those publicly. And we can work to minimize those 
vulnerabilities, flatten the playing field, level the playing 
field.
    So your staff has already, in a very bipartisan way, taken 
time with me, as have the other committees. You are holding 
this hearing.
    You talk about urgency. In 3 weeks, sir, I have gotten 
approved a major realignment that I know works. Is it optimum-- 
I don't know; time will tell. But on Monday we are having an 
all-hands--this one is not voluntary. This one is mandatory, 
because we are aligning to the organization for the 
accomplishment of our mission as specified in the law and 
legislation.
    On basic research, I have already told you how strongly I 
believe in that. It is a shining light on the hill. It is what, 
in large measure--and I have traveled the world--makes America 
so unique. I am not putting down the intellect or the basic 
research in other countries, but no one does it as broadly as 
we do.
    And I have talked about Bayh-Dole and how important I think 
that has been in basic research--spinoffs, startups, venture 
capital, et cetera.
    In Navy--and this was different than Army and Air Force--we 
had a balanced basic and applied in advanced technology 
research portfolio. It was split 50-50.
    Because of how the Congress wrote the legislation, which I 
appreciate, and you want me to leverage, not recreate, NSF, 
NIH, et cetera, my feeling is, I don't need that much money. I 
just need more focus.
    But you will see, as I go through the requirements and the 
budget development process, that more monies within the 
construct of the administration and all the demands will be 
applied to focused--I want to make that clear--not presuming 
the outcome, but focused basic research.
    The criteria that I will use is, can this area, can this 
discipline, might this discipline contribute to a clear mission 
function in law of the department--
    If the researcher can show the possibility, that is 
sufficient, and then we will rack and stack those within the 
assets I have. If they can't even meet that low standard--
remember, I am not asking, ``Show me how it will''; I am saying 
show me how this nanotechnology research, this sensor research 
and basic research might contribute to a known mission 
requirement--then I think they haven't made the cut.
    On the Transportation Security Lab, I have been working 
assiduously with the staff that wrote that legislation. I 
understand their frustration. I respect their frustration.
    But, sir, you have it exactly right. At the end of the day, 
if we keep playing ping-pong with that incredibly valuable lab, 
who understands aviation, understands the FAA, understands 
TSA--they are an S&T organization.
    Susan Hallowell has been invaluable to me. She has been one 
of the three leaders in my rapid response team, along with Jim 
Tuttle, the program manager, and Dr. George Zarur, who is the 
scientist who understands the chemistry, et cetera.
    And 2 weeks ago, Kip Hawley and I signed a memorandum of 
understanding. It had been in the works for a long time. To me, 
it was a priority. This was the wolf closest to the door. Kip, 
with joy in his heart, signed that MOU. We delivered copies to 
all of the staff, and it is my understanding that the other 
body is seriously considering not going forward with the 
transfer of TSL.
    I believe if we transfer TSL we will lose ground. We will 
lose time. It would be a mistake.
    And I appreciate your support in this area, sir.
    Mr. Pascrell. Thank you.
    Thank you for your patience.
    Mr. Reichert. That is it-- You are done--
    Well, we appreciate you taking the time. Sorry for a couple 
of interruptions.
    I just want to make a brief ending comment here.
    You have been, as you said, in your office less than a 
month. And we can sense your energy and enthusiasm and 
compassion and passion for your job. And I know that the people 
who work with you as partners in your directorate will 
recognize that.
    And we look forward to great things happening, and our next 
invitation to have you come and testify before us.
    And the chair would ask unanimous consent, if it hasn't 
already been accomplished, that the undersecretary's statement 
be submitted for the record. Without objection, that is 
ordered.
    This hearing is concluded.
    Mr. Cohen. Thank you, sir. And it is an honor to serve.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
